                                                     NATIONAL SCIENCE FOUNDATION
                                                      OFFICE OF INSPECTOR GENERAL
                                                        OFFICE OF INVESTIGATIONS

                                               CLOSEOUT MEMORANDUM

11   Case Number: 1-08110055
                                                                                     11         Page 1 of 1



          This investigation was initiated from a proactive review of awards where 20% or more of the
          funds were drawn down in the last quarter prior to the expiration date or later. A review of NSF
          databases found an NSF award1made to an institution2where more than 20% of the funds were
          drawn down in the last quarter prior to the expiration date or later.

          Investigation, which included a review of the financial records, and site visits to the awardee
          institution and the PI^, revealed that there were charges made to the award that were unallowable
          or not supported by sufficient documentation.

          The awardee returned a check to NSF for all of the unallowable and unsupported charges, in
          addition to making changes to their training procedures and travel and purchase card policies.


Il        In light of the above, no further investigative effort is necessary in this matter.

          Accordingly, this case is closed.




         -:
          3




 NSF OIG Form 2 (11/02)
